                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

         Case Number: 1-03-09-0043
                                                                                       I          Page 1 of 1




              An internal review of government travel credit card program by the National Science Foundation
              (NSF) Office of Inspector General (OIG) revealed the possibility of unauthorized use-of the
              government travel credit card.                                                              1
              A review of the subject employee's lgovernment travel credit card statement transaction reports,
              for the period July 1oLh- November 7Lh,2002, reflected multiple cash withdrawals and other
              charges which did not appear to be associated with official government travel, in excess of


              During OIG7sinterview of the subject employee, she acknowledged that she used the
              government travel credit card to make cash withdrawals and to purchase gasoline for personal
              use. She further stated that she was told by an unidentified NSF colleague that it was permissible
              to use the government travel credit card for non-official purposes as long as the balance was paid.
                                                                                                      I
              NSFIOIG referred this case to the Office of the United States Attorney, Eastern District of
              Virginia who declined prosecution in lieu of agency administrative action.

              OIG7sreferral to NSF resulted in the subject employee receiving an official written reprimand.
              A copy of the official reprimand is attached and constitutes part of this closeout document.

              Accordingly, this case is closed.



                                                                                                     1

                 -



                                                                                                     IX




    I'
,   NSF OIG Form 2 (1 1/02)
I
           MEMORANDUM
1)


           DATE:          June 17,2004

           TO:

           FROM:          0
           SUBJECT: Confirmation of Counseling

           This correspmdenee is to sonfirm the conversations in which your misuse of you~Government
           Travel Credit Card, and delinquency in making payments on your Government Travel ~ r d d i t
. .        Card were discussed.

            On April 19,2004, the Office of the Inspector General (OIG), National Science Foundation
           (NSF) issued the results of their investigation into Government Travel Credit Card delinquency
           and misuse. In it, a detailed review was conducted on the activity of your account. The review
     i1l   showed multiple ATM withdrawals, and other charges to your travel card made during times
           when you were not on official travel. Therefore, your use of the card on these occasions was
      I
           unauthorized. As discussed, the government travel card is only for appropriate business use
           while on oficial travel.
                                                                                                    I

           In additionl-m~ivision                                 of Financial Management (DFM) nqtified
           you by memorandum dated 10128102, that your Government Travel Card account was 60 days
           past due and again on 1 1/19/02, that your account was 90 days past due, and that your account
           was in suspension. As representatives of the NSF we are responsible for meeting our just
           financial obligations, as well as for using the Government Credit Card in an authorized and
           appropriate manner.
      li
      1I   Based on my review of the documented conversations you have had on this matter, I am
       1   confident that you understand the appropriate use of the Government Travel Credit Card, and I
           do not believe any further action to be necessary. I am issuing this memo to confirm that I am
           aware of the discussions that you haye had on this matter, and that I am satisfied with its
                                                                                                       11 to
           outcome. This document will not be filed in your Official Personnel Folder, as it is considered
           be an informal memorandum.
"
     'I
                          .             1
                                        d

I.                                 f   /"                 ~ationaklcience Foundation                                            I\

 b4                       7        2                      4201 Wilson Boulevard, Arlington, Virginia 22230                      I/
f

      li

          I1                                Memorandum                                                                           I



          I1

          li                                DATE:         June 8,2004
           I
          I/                                TO:
           1                                FROM:

           I/                               SUBJECT:      Official Reprimand
                                                                                                                      i


                                                                                                                                     I
               I
                                            The purpose of this memorandum is to issue an official reprimand for your misuse of your
                                            Government Travel Credit Card, and delinquency in making payments on your Government
               'I
                                            Travel Credit Card. The specifics and details of this misconduct are described below.
               I<
                                          On April 19, 2004, the Office of the Inspector General (OIG), National Science Foundation
                II                        (NSF) issued the results of their investigation into Government Travel Credit Card
                                          delinquency and misuse. In it, a detailed review was conducted on the activity of your 1'
                I/                        account. The review showed multiple and frequent ATM withdrawals, and other charges to
                                          your travel card made during times when you were not on official travel. Therefore, you/ use
                    Ij                    of the card on these occasions was unauthorized. 'The government travel card is only for
                                          appropriate business use while on official travel. The cash withdrawals and charges, totaling
                    'i                  J$3,005.30, are detailed below:
                                                                                                                                         I1
                    li                      07110102      $41.50            ATM cash withdrawal
                                                          $0.79             ATM cash advance fee
                     1,


                                            07/24/02      $120.00           ATM cash withdrawal
                     1(
                                                          $2.28             ATM cash advance fee
                      I!
                                            07/25/02      $14.00.           7 Eleven
                         II
                                            07/26/02      $120.00           ATM cash withdrawal
                          1
                                                          $2.28             ATM cash advance fee
                                                          $5.00             LI-Haul

                                            08/04/02      $250.00           ATM cash withdrawal
                          ~j                              $4.75             ATM cash advance fee

                          I!                8119/02       $250.00           ATM cash withdrawal
                                                          $4.75             ATM cash advance fee
                           /I                             $19.84            Speed Service Station

                           I/               8120102       $1 1.50           Raceway
                                                          $17.25            Flying J
                              'I

                                            8/21/02       $20.71    .   ,   Exxon Service Station
                              !!
        8/25/02      $17.00        Amoco Service station
                     $30.00        Trans Alpha Si
                     $7.1 1        Citgo Food

        8/26/02      $101.50       ATM cash withdrawal
                     $1.93         ATM cash advance fee

        09/02/02     $60.00        ATM cash withdrawal
                     $1.14         ATM cash advance fee
    I


        09/03/02     $180.00       ATM cash withdrawal
                     $3.42         ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

                                   ATM cash withdrawal     -
                                   ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

        09119/02     $250.00       ATM cash withdrawal
                     $4.75         ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

                                   ATM cash withdrawal
                                   ATM cash advance fee

        In his memorandum to you dated 11119/02,
                                  otified you that yo
I       past due in the amount of $1,729.92, and that your account was in suspension. Your
        Division Director,                     was also notified and around late ~ o v e r n b e r m
        s~oke  with you a!out this situation, at which time you assured him that "things had been
                                                                                              1
        taken care of", or words to that effect.                                              I
                                                                                        li
                          YOU received another memo dated 12/19/02 f r o m c o n c e r n i n g your Governbent
                          Travel Card account which notified you that your account was 90 days past due in the 1
                          amount of $1,569.92.

                          Finally, on 02124103, you received a letter f r o m n o t i f y i n g you that your travel
                          card was cancelled for nonpayment of the balance in the amount of $3,053.00. You were
                          told that the NSF would begin salary offset if the outstanding balance not paid immediately.
                          You did not make the immediate payment, and bi-weekly salary offset commenced pay
                          period 2003-6 in the amount of $181.53, until the balance was paid in full. Bank of America
                          will not issue you another card and your account remains closed and cancelled.

                          In reviewing this situation, I considered that when you were first issued your Government
                          Travel Card on 06120102, the agreement you signed specified that you would use the travel
                  I       card for official travel and official travel related expenses only.

                          I also considered your affidavit to the OIG dated 12/23/03, in which you acknowledge your
                          misuse, and stated, "I did use the card for official travel but I also used it for cash withdrawals
                          and to buy gasoline for personal use. I apologized for this to my Division Director and my
                          supervisor earlier this year when they reprimanded me and I wish to apologize to NSF now. I
                          have paid off the balance on the account and the account is closed. I hope to close this
              I
              1
                          matter as well. I am sorry for what I did and I will not repeat it." I note that contrary to your
                          statements, you did not apologize for this to the Division Director or to me, and you were
                          never reprimanded or had any action taken against you prior to this notice. Further, you had
                          not paid off the balance on the account as you asserted, because the salary-offset process
                          did not conclude until 4/23/04 when the last payment was taken from your salary.

          ,I              This type of misconduct is serious, reflects poorly on the office, and will not be tolerated. As
                          representatives of the NSF we are responsible for meeting our just financial obligations, as
                          well as for using the Government Credit Card in an authorized and appropriate manner. This
          I
                          action is being taken to stress upon you the importance of adhering to federal regulations,
                          NSF policy and minimum standards of conduct. I must warn you that similar behavior on your
                          part in the future will be grounds for more serious disciplinary measures.
      I/

          I
     I                    A copy of this reprimand will be placed in your Official Personnel Folder for a period not to
     ;I                   exceed three years, unless I decide to remove it after one year if I believe it has served its
                          intended purpose.
     I
     :I                   At this time, you have the right to file a grievance under the provisions of the Collective
     /I                   Bargaining Agreement. If you elect to file a grievance, it must be presented in accordance
 /i                   ,
                          with the procedures described in Article XVI of the Collective Bargaining Agreement, a copy ,
 1                        of which is attached.
 1
I!
I!
                          You may present a grievance at any time after receipt of this memorandum, but not later than
                          twenty-five (25) calendar days after receipt. Your grievance under this procedure must begin
                          as an informal grievance and may be presented either orally or in writing.

                          If you have an uestions regarding your rights or the procedures used in this matter, you
                          may c o n t a c t kEmployee Relations Specialist, in the Division of Human Resource
                                                                                                                            I
     Management or Local 3403 AFGE, the bargaining unit representative. -is   located
I
I/   in Room 395 and may be reached on (703) 292-4342.




     Attachment
